           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

          SINGLE AUDIT OF
      THE STATE OF CALIFORNIA
        FOR THE FISCAL YEAR
         ENDED JUNE 30, 2009

     November 2010   A-77-11-00002




 MANAGEMENT
ADVISORY REPORT
                                                Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d
in ve s tig a tio n s , we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f
S S A’s p ro g ra m s a n d o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d
a b u s e . We p ro vid e tim e ly, u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to
Ad m in is tra tio n o ffic ia ls , Co n g re s s a n d th e p u b lic .

                                               Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive
u n its , c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG,
a s s p e lle d o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d
     p ro p o s e d le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s
     a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d
     o f p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e
     re vie ws .

                                                 Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d ,
wa s te a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n
e n viro n m e n t th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g
e m p lo ye e d e ve lo p m e n t a n d re te n tio n a n d fo s te rin g d ive rs ity a n d
in n o va tio n .
                                    SOCIAL SECURITY
MEMORANDUM

Date:   November 9, 2010                                                   Refer To:

To:     Rebecca Tothero
        Acting Director
        Audit Management and Liaison Staff

From:   Inspector General

Subject: Management Advisory Report: Single Audit of the State of California for the Fiscal Year
        Ended June 30, 2009 (A-77-11-00002)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of California for the Fiscal Year ended June 30, 2009. Our objective
        was to report internal control weaknesses, noncompliance issues, and unallowable
        costs identified in the single audit to SSA for resolution action.

        The California State Auditor performed the audit. The desk review conducted by the
        Department of Health and Human Services (HHS) concluded that the audit met Federal
        requirements. In reporting the results of the single audit, we relied entirely on the
        internal control and compliance work performed by the California State Auditor and the
        reviews performed by HHS. We conducted our review in accordance with the Council
        of the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspections.

        For single audit purposes, the Office of Management and Budget (OMB) assigns
        Federal programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s
        Disability Insurance (DI) and Supplemental Security Income (SSI) programs are
        identified by CFDA number 96. SSA is responsible for resolving single audit findings
        reported under this CFDA number.

        The California Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. The
        Department of Social Services (DSS) is the DDS’ parent agency.

        The single audit reported that payroll costs distributed to the California DDS were not
        supported by personnel activity reports as required by OMB Circular A-87, “Cost
        Principles for State, Local, and Indian Tribal Governments” (Attachment A,
        Pages 1 through 3). The corrective action plan indicates that DSS will become
Page 2 – Rebecca Tothero


compliant with OMB Circular A-87 (Attachment A, Page 3). We recommend that SSA
ensure payroll costs distributed to the California DDS are supported by personnel
activity reports when required by OMB Circular A-87.

The single audit also disclosed the following findings that may impact DDS operations
although they were not specifically identified to SSA. I am bringing these matters to
your attention as they represent potentially serious service delivery and financial control
problems for the Agency.

•   The State’s accounting system did not allow the Expenditures of Federal Awards to
    be prepared in compliance with OMB Circular A-133, “Audits of States, Local
    Governments, and Non-Profit Organizations” requirements (Attachment B,
    Pages 1 and 2).

•   DSS did not include suspension and debarment certification language in all
    contracts. In addition, the Excluded Parties Lists System Website was not checked
    to determine whether contractors were excluded from participation in Federal
    programs (Attachment B, Pages 3 through 5).

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (816) 221-0315, extension 1537.




                                                 Patrick P. O’Carroll, Jr.

Attachments
                                                                                            Attachment A
                                                                                              Page 1 of 3
             Reference Number:                          2009-2-1

             Category of Finding:                       Allowable Costs/Cost Principles

             State Administering Department:            Department of Social Services (Social Services)

             Federal Catalog Number:                    93.658

             Federal Program Title:                     Foster Care-Title IV-E (Foster Care)

             Federal Award Numbers and Years:           0901 CAl402; 2009
                                                        0901CA1401 ; 2009
                                                        0801CAl401; 2008



             Federal Catalog Number:                    96.001

             Federal Program Title:                     Social Security-Disability lnsurance
                                                        (Disability Insurance)

             Federal Award Numbers and Years:           04-0904CADIOO; 2009
                                                        04-0804CADIOO; 2008

Criteria
TITLE 2-GRANTS AND AGREEMENTS, PART 225-COST PRINCIPLES FOR STATE, LOCAL,
AND INDIAN TRIBAL GOVERNMENTS (OMB CIRCULAR A-87)

AppendiX B to Part 225-Selected Items of Cost

8.     Compensation for personal services
       h.    Support of salaries and wages. These standards regarding time distribution are in addition
             to the standards for payroll documentation.
             (3)   Where employees are expected to work solely on a Single Federal award or cost
                   objective, charges for their salaries and wages will be supported by periodic
                   certifications that the employees worked solely on that program for the period
                   covered by the certification. These certifications will be prepared at least
                   semi-annually and will be Signed by the employee or supervisory official haVing
                   first hand knowledge of the work performed by the employee.
             (4)   Where employees work on multiple activities or cost objectives, a distribution of
                   their salaries or wages will be supported by personnel activity reports or eqUivalent
                   documentation which meets the standards in subsection 8.h.(5) of this appendix
                   unless a statistical sampling system (see subsection 8.h.(6) of this appendix) or
                   other substitute system has been approved by the cognizant Federal agency. Such
                   documentary support will be reqUired where employees work on:
                   (a)    More than one Federal award,
                   (b)    A Federal award and a non-Federal award,
                   (c)    An indirect cost activity and a direct cost activity,
                   (d)    Two or more indirect activities which are allocated using different
                                                                                                 Attachment A
                                                                                                   Page 2 of 3
               (5)   Personnel activity reports or equivalent documentation must meet the
                     following standards:
                     (a)   They must reflect an after-the-fact distribution of the actual activity of
                           each employee,
                     (b)   They must account for the total activity for which each employee
                           is compensated,
                     (c)   They must be prepared at least monthly and must coincide with one or more
                           pay periods, and
                     (d)   They must be signed by the employee.
                     (e)   Budget estimates or other distribution percentages determined before the
                           services are performed do not qualify as support for charges to Federal
                           awards but may be used for interim accounting purposes, provided that:
                           (i)     The governmental unit's system for establishing the
                                   estimates produces reasonable approximations of the activity
                                   actually performed;
                           (ii)    At least quarterly, comparisons of actual costs to budgeted
                                   distributions based on the monthly activity reports are made . Costs
                                   charged to Federal awards to reflect adjustments made as a result
                                   of the activity actually performed may be recorded annually if the
                                   quarterly comparisons show the differences between budgeted and
                                   actual costs are less than ten percent; and
                           (iii)   The budget estimates or other distribution percentages are revised at
                                   least quarterly, if necessary, to reflect changed circumstances.

Condition
Social Services does not always ensure that staff, whose payroll costs are charged to the Disability
Insurance and Foster Care programs, follow federal regulations . More specifically, the distribution
of payroll costs between the federal Disability Insurance and the state disability programs for eight of
24 staff we reviewed who work in two branches at Social Services was not supported by personnel
activity reports, as required. Four of these employees work in the Onsite and System Support Bureau
(support bureau), which provides information technology support to the various branches of the
Disability Determination Services Division (disability division). According to the chief of the support
bureau, payroll costs are allocated between federal and state disability programs using percentages that
have remained the same since at least 2007 and are based on discussions the chief had with staff in
that year. The remaining four staff members are clerical employees in the disability division's Oakland
branch office for whom there were no activity reports to support the allocation of their payroll costs .

In addition, we found that although the Foster Care Rates Bureau charged 100 percent of its
staff time during April through June of fiscal year 2008-09 to one program activity code, five of
its 16 staff reported time spent during this period on other program activity codes, which would
have changed the distribution of these employees' payroll costs. In fuct, for the one quarter we
reviewed, Social Services undercharged the federal Foster Care program by almost $4,000 and
overcharged the State's General Fund by the same amount. If this condition persisted throughout
the year, the amount inappropriately charged would have been approximately $15,000.

Unless Social Services corrects these deficiencies, it risks losing federal funds for noncompliance with
federal requirements.

Questioned Costs
N g t determ jp ed
                                                                                                 Attachment A
                                                                                                   Page 3 of 3
Recommendation
Social Services should require that all staff whose costs are charged to multiple activities, including
the federal Disability Insurance and the Foster Care program activities, prepare and correctly use the
personnel activity reports or equivalent documentation.

Department's View and Corrective Action Plan
Social Services stated that it concurs with the finding. Social Services indicated that its disability
division strives to follow all applicable gUidelines, and having been made aware of this deficiency,
Social Services will work with disability division fiscal staff to fully remedy this issue and be in
compliance with all aspects of Circular A-87. This finding should be resolved by April 2010.

Additionally, Social Services indicated that effective October 2009, the Foster Care Rates Bureau has
corrected this finding by instructing the time and attendance staff to appropriately identify and prepare
personnel activity documentation to identify reported activity codes listed on the quarterly time
studies. Social Services stated that this will ensure that program activities identified are in fact charged
to the correct Foster Care program.
                                                                                               Attachment B
                                                                                                 Page 1 of 5
                 Reference Number:                        2009-12-9

                 Federal Program Title:                   All Programs

                 Category of Finding:                     Reporting

                 State Administering Department:          Department of Finance (Finance)

Criteria
U.S. OFFICE OF MANAGEMENT AND BUDGET CIRCULAR A-133, AUDITS OF STATES, LOCAL
GOVERNMENTS, AND NON-PROFIT ORGANIZATIONS (OMB CIRCULAR A-133) , Subpart C-
Auditees, Section .310- Financial Statements

(b)    Schedule of expenditures of Federal awards. The auditee shall also prepare a schedule of
       expenditures of Federal awards for the period covered by the auditee's financial statements.
       At a minimum, the schedule shall:
       (3)       Provide total Federal awards expended for each individual Federal program and the CFDA
                 number or other identifying number when the CFDA information is not available.

OMB CIRCULAR A-133, Subpart E-Auditors, Section .520-Major Program Determination

(a)    General. The auditor shall use a risk-based approach to determine which Federal programs are
       major programs. The risk-based approach shall include consideration of: Current and prior audit
       experience, oversight by Federal agencies and pass-through entities, and the inherent risk of the
       Federal program. The process in paragraphs (b) through (i) of this section shall be followed.
(b)    Step l.
       (1)       The auditor shall identify the larger Federal programs, which shall be labeled Type
                 A programs. Type A programs are defined as Federal programs with Federal awards
                 expended during the audit period exceeding the larger of:
             (i)       $300,000 or three percent (.03) of total Federal awards expended in the case of an
                       auditee for which total Federal awards expended equal or exceed $300,000 but are
                       less than or equal to $100 million.
             (il)      $3 million or three-tenths of one percent (.003) of total Federal awards expended in
                       the case of an auditee for which total Federal awards expended exceed $100 million
                       but are less than or equal to $10 billion.
             (iii)     $30 million or 15 hundredths of one-percent (.0015) of total Federal awards
                       expended in the case of an auditee for which total Federal awards expended exceed
                       $10 billion.

Condition
State law requires Finance to maintain a complete accounting system to ensure that all revenues,
expenditures, receipts, disbursements, resources, obligations, and property of the State are accounted
for properly and accurately. Because of limitations in its automated accounting systems, the State has
not complied with the provision of OMB Circular A-133 requiring auditees to prepare a schedule
of expenditures of federal awards that includes the total federal awards expended for each federal
program. As a result, the schedule (beginning on page 309) shows total cash receipts rather than
expenditures by program. Further, without the expenditure information, we are unable to comply with
the provision of OMB Circular A-133 for determining which federal programs are major programs .
Instead, we use the cash receipts information to make our determination for Type A programs. We also
             .111.                          ·111               • •            <&   • • •     1··.
Attachment B
  Page 2 of 5
                                                                                              Attachment B
                                                                                                Page 3 of 5
             Reference Number:                          2009-9-2

              Category of Finding:                      Procurement, Suspension and Debarment

             State Administering Department:            Department of Social Services (Social Services)

              Federal Catalog Number:                   93.556

              Federal Program Title:                    Promoting Safe and Stable Families (PSSF)

              Federal Award Numbers and Years:          G-0901CAFPSS; 2009
                                                        G-OS01CAFPSS; 200S




              Federal Catalog Number:                   93.566

              Federal Program Title:                    Refugee and Entrant Assistance-State
                                                        Administered Programs (Refugee Program)



Criteria
TITLE 45-PUBLIC WELFARE, PART 92-UNIFORM ADMINISTRATIVE REQUIREMENTS
FOR GRANTS AND COOPERATIVE AGREEMENTS TO STATE, LOCAL AND TRIBAL
GOVERNMENTS, Subpart C-PostAward Requirements, Changes, Property, and Subawards,
Section 92.35-Subawards to Debarred and Suspended Parties

Grantees and subgrantees must not make any award or permit any award (subgrant or contract)
at any tier to any party which is debarred or suspended or is otherwise excluded from or
ineligible for participation in Federal assistance programs under Executive Order 12549, "Debarment
and Suspension:'

TITLE 2-GRANTS AND AGREEMENTS, PART lS0-0MB GUIDELINES TO AGENCIES ON
GOVERNMENTWIDE DEBARMENT AND SUSPENSION (NONPROCUREMENT)

Subpart B-Covered Transactions, Section lS0.200

A covered transaction is a nonprocurement or procurement transaction that is subject to the
prohibitions of this part. It may be a transaction at-

(a)    The primary tier, between a Federal agency and a person; or
(b)    A lower tier, between a participant in a covered transaction and another person.

Subpart C-Responsibilities of Participants Regarding Transactions Doing Business With Other
Persons, Section lS0.330

Before entering into a covered transaction with a participant at the next lower tier, you must require
that participant to-
                                                                                                Attachment B
                                                                                                  Page 4 of 5
(a)    Comply with this subpart as a condition of participation in the transaction. You may do so
       using any method(s), unless the regulation of the Federal agency responsible for the transaction
       requires you to use specific methods.
(b)    Pass the requirement to comply with this subpart to each person with whom the participant
       enters into a covered transaction at the next lower tier.

u.s. DEPARTMENT OF HEALTH AND HUMAN SERVICES-ADMINISTRATION FOR
CHILDREN AND FAMILIES TERMS AND CONDITIONS-SUBRECIPIENTS AND VENDORS
UNDER GRANTS

"No organization may participate in this program in any capacity or be a recipient of Federal funds
designated for this program if the organization has been debarred or suspended or otherwise found to
be ineligible for participation in Federal assistance programs under Executive Order 12549, "Debarment
and Suspension:' (See 45 CFR 92.35.) States must include a similar term and/or condition for all
subawards or contracts awarded under this program. Prior to issuing subawards or contracts under
this grant, the state must consult the ineligible parties list to ensure that organizations under funding
consideration are not ineligible:'

Condition
 In our last two audits, we reported that Social Services did not comply with either of the suspension
 and debarment requirements included in the Administration for Children and Families (ACF) grants'
 terms and conditions when entering into contracts with noncounty subrecipients. During our follow-up
 procedures for fiscal year 2008-09, we found that Social Services still has not corrected this issue.
Our review of contracts with two noncounty subrecipients found that the contracts did not include
the correct suspension and debarment terms and conditions. For example, the contract that Social
Services used for a noncounty subrecipient to proVide services for the Refugee Program stated that for
federally funded agreements of $25,000 or more, the contractor certified by signing the agreement that
to the best of the contractor's knowledge and belief, the contractor and its principals or affiliates were
not debarred or suspended from federal financial assistance programs and activities nor proposed for
debarment, declared ineligible, or voluntarily excluded from participation in covered transactions by
any federal department or agency. However, this contract's terms were incorrect because there is no
dollar threshold for the suspension and debarment requirement for programs receiving federal funds
from an ACF grant. Further, the terms did not include language specific to lower-tier subrecipients.
In May 2009 Social Services revised its standard agreement to correct the suspension and debarment
language. The amended agreement removed any mention of a dollar threshold and included language
regarding lower-tier subrecipients.

Our review of two noncounty subrecipient contracts found that Social Services' staff did not consult
the federal Excluded Parties List System (EPLS) Web site before issuing subawards or contracts as
required by the ACF terms and conditions. According to the chief of the contracts and financial analysis
bureau, Social Services has introduced a checklist that requires its staff to check the EPLS Web site
before finaliZing a contract. However, the chief indicated that because the checklist was instituted
during fiscal year 2008-09, staff would not have reviewed the EPLS for contracts that were finalized before
fiscal year 2008-09.

Until Social Services corrects these issues, it will be unable to ensure that its noncounty subrecipients
have not been suspended or debarred.

Questioned Costs
Not applicable.
                                                                                                Attachment B
                                                                                                  Page 5 of 5
Recommendations
For contracts with noncounty subrecipients that are funded by ACF grants, Social Services should do
the following:

(1)    Continue the use of its revised suspension and debarment language when entering into contracts
       with new noncounty sub recipients and amend existing contracts to include this language.
(2)    Continue the use of its contract checklist that prompts staff to consult the EPLS Web site before
       entering into these contracts.

Department's View and Corrective Action Plan
Social Services concurs with our finding. Social Services stated that it will continue to use the revised
suspension and debarment language in all contracts submitted for renewal or amendment, and it will
conduct the EPLS search before entering into contracts. Results from the EPLS Web site are printed
and included in the contract file as part of the documentation.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
